TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                           Improvements Are Needed in
                        Documentation and Data Accuracy
                          for the Employment Tax Study



                                            May 8, 2014

                              Reference Number: 2014-10-031




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information

 Phone Number / 202-622-6500
 E-mail Address / TIGTACommunications@tigta.treas.gov
 Website        / http://www.treasury.gov/tigta
                                                  HIGHLIGHTS


IMPROVEMENTS ARE NEEDED IN                           generally noted that they performed payroll
DOCUMENTATION AND DATA                               reconciliations on the required forms for a
ACCURACY FOR THE EMPLOYMENT                          statistical sample of cases TIGTA reviewed.
TAX STUDY                                            However, in 32 percent of the cases reviewed,
                                                     examiners did not document steps taken to
                                                     perform the payroll reconciliations. For instance,
Highlights                                           examiners noted that they reconciled the
                                                     Employer’s Quarterly Federal Tax Return to
                                                     Wage and Tax Statements, but there was no
Final Report issued on May 8, 2014                   documentation in some electronic case files to
                                                     verify these reconciliations were completed.
Highlights of Reference Number: 2014-10-031          Required managerial reviews were not effective
to the Internal Revenue Service Deputy               in identifying the issues TIGTA found.
Commissioner for Services and Enforcement
and Director, Office of Research, Analysis, and      TIGTA also found inaccuracies on the
Statistics.                                          NRP Employment Tax databases. From a
                                                     statistical sample of 95 closed cases, TIGTA
IMPACT ON TAXPAYERS                                  determined that 1,037 of 3,065 data elements
The National Research Program (NRP)                  related to examination workpapers and 44 of
Employment Tax Study is designed to collect          1,683 data elements related to examination
examination data to allow the IRS to understand      reports were not accurately reflected on the
the compliance characteristics of taxpayers and      NRP Employment Tax databases.
use the information to improve employment tax        WHAT TIGTA RECOMMENDED
compliance. If complete and accurate data are
not collected as part of the NRP Employment          TIGTA recommended that the Commissioner,
Tax Study, study results may not allow the IRS       Small Business/Self-Employed Division, and
to focus its limited resources on productive         Commissioner, Tax Exempt and Government
areas, reduce burden on compliant taxpayers, or      Entities Division, remind managers and
better educate taxpayers on employment tax           examiners of the importance of adequately
issues.                                              documenting case files and document lessons
                                                     learned to improve future quality of employment
WHY TIGTA DID THE AUDIT                              tax examinations. In addition, TIGTA
The overall objective of this review was to          recommended that the Director, Office of
determine whether the examinations conducted         Research, improve the quality of the data
as part of the NRP Employment Tax Study              compiled as part of the NRP Employment Tax
considered mandatory (issues specific to a           Study.
particular IRS business unit), required (issues      In their response to the report, IRS officials
common among all IRS business units), and            agreed with TIGTA’s recommendations and plan
worker classification employment tax issues and      to or have taken corrective actions. The IRS
whether examiners properly documented                stated it plans to discuss better documentation
examination work and appropriately recorded          of case files with staff and managers and inform
examination results.                                 all examiners about best practices and
WHAT TIGTA FOUND                                     techniques to improve employment tax audit
                                                     quality overall. Also, the IRS stated it plans to
TIGTA determined that examiners generally            employ a data perfection process to identify and
completed required forms for the                     correct data problems.
NRP Employment Tax Study to document that
they considered mandatory, required, and
worker classification issues. However, various
supporting documents were not included in the
electronic case files. For example, examiners
                                                   DEPARTMENT OF THE TREASURY
                                                          WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                     May 8, 2014


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT
                DIRECTOR, OFFICE OF RESEARCH, ANALYSIS, AND
                STATISTICS


 FROM:                          Michael E. McKenney
                                Acting Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Improvements Are Needed in Documentation and
                                Data Accuracy for the Employment Tax Study (Audit # 201310023)

 This report presents the results of our review to determine whether the examinations conducted
 as part of the National Research Program Employment Tax Study considered mandatory,
 required, and worker classification employment tax issues1 and whether examiners properly
 documented examination work and appropriately recorded examination results. This review is
 included in our Fiscal Year 2014 Annual Audit Plan and addresses the major management
 challenge of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VIII.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. If you have any questions, please contact me or Gregory D. Kutz,
 Assistant Inspector General for Audit (Management Services and Exempt Organizations).




 1
   Mandatory issues are specific to a particular Internal Revenue Service business unit, while required issues refer to
 issues common among all Internal Revenue Service business units.
                                   Improvements Are Needed in Documentation
                                 and Data Accuracy for the Employment Tax Study




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          Examiners Are Generally Completing Required Forms,
          but Various Supporting Documents Are Not Included in
          the Electronic Case Files ............................................................................... Page 5
                    Recommendation 1:.......................................................... Page 6

                    Recommendation 2:.......................................................... Page 7

          Although Valuable Employment Tax Compliance Data
          Are Being Gathered, Some Data Are Not Accurate ..................................... Page 7
                    Recommendation 3:.......................................................... Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 10
          Appendix II – Major Contributors to This Report........................................ Page 13
          Appendix III – Report Distribution List ....................................................... Page 14
          Appendix IV – Outcome Measures .............................................................. Page 15
          Appendix V – Tax Forms Referred to in This Report .................................. Page 17
          Appendix VI – Required Forms Referred to in This Report ........................ Page 18
          Appendix VII – Glossary of Terms .............................................................. Page 19
          Appendix VIII – Management’s Response to the Draft Report ................... Page 21
          Improvements Are Needed in Documentation
        and Data Accuracy for the Employment Tax Study




                 Abbreviations

DCI        Data Capture Instrument
FSLG       Federal, State, and Local Governments
IRAS       Information Return Analysis System
IRS        Internal Revenue Service
LB&I       Large Business and International
NRP        National Research Program
SB/SE      Small Business/Self-Employed
TE/GE      Tax Exempt and Government Entities
TY         Tax Year
                              Improvements Are Needed in Documentation
                            and Data Accuracy for the Employment Tax Study




                                            Background

In Fiscal Year1 2000, the Internal Revenue Service
(IRS) established the National Research Program               According to the IRS, the data
(NRP) as part of its efforts to develop and monitor        collected from the NRP Employment
                                                            Tax Study will be used to measure
strategic measures of taxpayer compliance. The IRS
                                                          employment tax reporting compliance,
believes data and compliance measures resulting          better target limited IRS resources, and
from the NRP will help it detect noncompliance,            improve taxpayer education efforts.
reduce taxpayer burden, and support the strategic
planning and budget process. According to the IRS,
the Tax Gap increased from $345 billion in Tax Year (TY) 2001 to $450 billion in TY 2006, the
most recent year for which the necessary statistics were available. The IRS estimates that
employment tax underreporting constitutes almost $72 billion of the Tax Gap, including
$14 billion in underreported Social Security and Medicare taxes.
The Office of Research, within the IRS’s Office of Research, Analysis, and Statistics, is
responsible for identifying and selecting tax returns for examination as part of the NRP.
Various IRS business operating divisions are responsible for examining the tax returns using
NRP guidelines and transmitting the results back to the Office of Research for compilation and
analysis.
In February 2010, the IRS initiated an NRP Employment Tax Study focusing on employment tax
reporting compliance. The IRS had not conducted a comprehensive study of business taxpayers’
compliance with employment taxes since 1984. According to the IRS, the current
NRP Employment Tax Study is designed to measure compliance, determine compliance
characteristics so the IRS can focus on the employment tax areas with the most significant
problems, update return selection criteria, assist the IRS with updating the Tax Gap compliance
estimates, identify pre-filing activities that will help taxpayers comply with the tax law, and help
ensure fairness of the tax system. However, in a previous audit,2 we concluded that the
examination results for the sampled taxpayers in the NRP Employment Tax Study may not
enable IRS management to fully estimate compliance levels for business taxpayers. Available
resources limited the overall sample size, and the sample design excluded some larger employers
from the study. In response to that audit, IRS management indicated that they may use the
results of ongoing audits to assist in estimating compliance levels for these taxpayers.


1
 See Appendix VII for a glossary of terms.
2
 Treasury Inspector General for Tax Administration, Ref. No. 2011-10-034, Limitations in the Sample Size for the
Internal Revenue Service’s Employment Tax Study May Impact the Ability to Determine Compliance Levels
(May 2011).
                                                                                                           Page 1
                              Improvements Are Needed in Documentation
                            and Data Accuracy for the Employment Tax Study



The NRP Employment Tax Study focuses on examinations of Forms 941,3 Employer’s Quarterly
Federal Tax Return, covering TYs 2008, 2009, and 2010. The NRP Employment Tax Study
includes Forms 941 selected for the 1) Small Business/Self-Employed (SB/SE) Division,
2) Exempt Organizations function within the Tax Exempt and Government Entities (TE/GE)
Division, 3) Federal, State, and Local Governments (FSLG) office within the TE/GE Division,
and 4) Large Business and International (LB&I) Division.4 As shown in Figure 1, a total of
6,840 cases were randomly selected for the NRP Employment Tax Study. According to
IRS management, NRP Employment Tax Study examinations will be substantially completed by
the end of Fiscal Year 2014.
    Figure 1: Sample Size of the NRP Employment Tax Study by Functional Area


           Functional Area             TY 2008          TY 2009         TY 2010           Totals

        SB/SE Division                   1,514           1,378            1,465            4,357

        Exempt Organizations              543             770              533             1,846
        Function

        FSLG Office                       89              181              220              490

        LB&I Division                     49               45               53              147

        Totals                           2,195           2,374            2,271            6,840
        Source: Inventory of the NRP Employment Tax Study as of September 30, 2012.

Examiners within each business operating division receive tax returns assigned to them on their
respective inventory and case management system.5 The Office of Research has provided
examiners with tools developed for the NRP Employment Tax Study to enhance the examination
process and capture the data for each of the sampled cases. These include:
        Data Capture Instruments (DCI). Two DCIs were used to electronically organize and
         collect examination workpapers and results and generate reports for each year of the



3
  See Appendix V for a description of tax forms referred to in this report.
4
  The IRS merged its SB/SE Division and LB&I Division employment tax groups on October 1, 2012.
5
  The Exempt Organizations function and FSLG office used the Reporting Compliance Case Management System to
manage their inventory and work assigned cases, while the SB/SE and LB&I Divisions used the Report Generation
Software to manage and work assigned cases. According to the IRS, the Report Generation Software was a
completely new program for SB/SE Division and LB&I Division employment tax examiners and managers.
                                                                                                      Page 2
                               Improvements Are Needed in Documentation
                             and Data Accuracy for the Employment Tax Study



        study.6 The first DCI, referred to as DCI-1, contains identifying data, an issue summary,
        and the lead sheets (workpapers) to be completed during the examination. The case file
        includes different categories of lead sheets the examiner has available to develop the
        employment tax case. Mandatory lead sheets address issues specific to a particular
        business unit within the IRS, while required lead sheets refer to common issues among
        the business units. The second DCI, referred to as DCI-2, is used by the examiners to
        create examination reports that are provided to taxpayers. According to the Office of
        Research, data captured from the DCIs and other IRS computer systems will be used to
        analyze the results of the NRP Employment Tax Study.
       The Information Return Analysis System (IRAS). Examiners were provided a Microsoft
        Access® program and a data file with Form 1099, U.S. Information Return, series of
        returns and Form W-2, Wage and Tax Statement, information that the examiners were
        required to use to perform payroll tests. This IRAS tool generated reports that enabled
        the examiner to isolate potential compliance reporting issues. For example, the IRAS
        generates a report referred to as “An Invalid SSN7 Test.” This test may indicate an
        internal control problem with the preparation of Forms W-2 or Forms 1099 and potential
        for information return penalties.
Mandatory and required lead sheets (hereafter referred to as required forms) must be completed
during the examination, along with additional forms when needed. For example, there are
five additional forms associated with worker classification issues that would need to be
completed only if the examiner identifies worker classification as a potential issue in the
examination. All of the required forms are used to complete examination steps and to document
what the examiner did and found during the course of the examination. During the course of this
audit, we focused on the following required forms:8
       Multi-Year and Related Returns.
       Payroll Reconciliation.
       Form 1099 Filing Checks.
       Fringe Benefits for Executives and Non-Executives.
       Backup Withholding.
       Worker Classification.



6
  Each DCI had to be extensively reconstructed for each tax year due to tax law changes, tax rate changes, and
enhancements identified in the prior year study.
7
  SSN – Social Security Number.
8
  See Appendix VI for a description of the required forms we reviewed.
                                                                                                             Page 3
                           Improvements Are Needed in Documentation
                         and Data Accuracy for the Employment Tax Study



Once the examination is completed, the examiner uploads case information to the respective
inventory management systems, completes the NRP Examiner Case Closing Check Sheet, and
transmits the case information and results to the NRP databases. Office of Research analysts
designed automated consistency tests that identify potential data entry problems with the
submitted data entries. The results are provided to the examiner via an automated e-mail system.
If the data are missing or have incomplete elements, the system will indicate the error, and the
examiner must complete or correct the error(s) and retransmit the data. Once all preliminary
tests have passed, the examiner is provided an e-mail indicating the case is ready for closure.
Additionally, after all cases have been closed, Office of Research analysts do a post-closure
systemic data review check of all the data transmitted. For example, the analysts review the data
to determine whether there are any blank cells, the data in the cells make sense, and there is
consistency in the responses.
This review was performed with information obtained from the Office of Research located in
Washington, D.C.; the Exempt Organizations function examination office located in
Dallas, Texas; and the FSLG office located in Austin, Texas, during the period December 2012
through October 2013. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                             Page 4
                              Improvements Are Needed in Documentation
                            and Data Accuracy for the Employment Tax Study




                                    Results of Review

Examiners Are Generally Completing Required Forms, but Various
Supporting Documents Are Not Included in the Electronic Case Files
We determined that examiners generally completed required forms for the NRP Employment
Tax Study to document that they considered mandatory, required, and worker classification
issues. These required forms related to: (a) filing requirements, (b) worker classification issues,
(c) fringe benefits for executives and nonexecutives, (d) Form 1099 filing checks, and
(e) backup withholding issues.
However, various supporting documents were not included in electronic case files as required by
IRS policy. Specifically, we found that examiners noted that they performed payroll
reconciliations on the required forms in 94 of the 95 closed cases9 in our statistical sample.10
However, examiners did not adequately document steps taken to perform payroll reconciliations
in 30 (32 percent)11 of the 94 cases reviewed. Specifically, examiners did not document steps
taken to reconcile Forms W-2 to the tax returns, Forms 941 to Forms W-2, and the year-end
payroll to Forms W-2 and Form W-3, Transmittal of Wage and Tax Statements.
NRP employment tax guidelines require that Forms W-2, Form W-3, Forms 941, income tax
returns, and payroll summaries all reconcile to each other. Without adequate supporting
documentation in the case file, reviewers have no way of knowing if the examination steps were
performed or performed adequately to determine employment tax noncompliance.
In addition, examiners did not include other required documentation in the electronic case file.
For example, 26 (27 percent) of 95 cases12 we reviewed did not include copies of all applicable
employment tax returns. Another 17 (18 percent) of 95 cases13 did not include a complete set of
required IRAS reports. Without this information in the electronic case file, it is unclear whether


9
 ******************************************1*************************************************
*******************************************1*************************************************
********1**************.
10
   See Appendix I for our sampling methodology.
11
   Based on our random sample, we are 90 percent confident that the range of potential NRP Employment Tax Study
cases for which examiners did not adequately document steps taken to perform payroll reconciliations is between
24 and 40 percent.
12
   Based on our random sample, we are 90 percent confident that the range of potential NRP Employment Tax Study
cases that did not include all applicable employment tax returns is between 20 and 35 percent.
13
   Based on our random sample, we are 90 percent confident that the range of potential NRP Employment Tax Study
cases that did not include all required IRAS reports is between 11 and 24 percent.
                                                                                                        Page 5
                             Improvements Are Needed in Documentation
                           and Data Accuracy for the Employment Tax Study



the examiner reviewed all tax returns and performed all required reconciliations to determine if
the taxpayer was compliant.
IRS and NRP guidelines require that audit procedures and conclusions for each issue examined
be supported by written comments in the workpapers to ensure that the statistical data gathered
for the NRP Employment Tax Study are accurate and complete. These guidelines also require
that all sampled employment tax returns and IRAS reports be included in the electronic case file.
Additionally, the examiners’ group managers and the NRP coordinators should be reviewing the
electronic case file to determine if required documentation is included.
The lack of supporting documentation in the electronic case file was not discovered in part
because internal controls requiring managers to complete checksheets indicating that examiners
adequately documented the NRP Employment Tax Study examinations were not effective in
identifying the issues we found. Group managers are required under NRP guidelines to complete
a review of the case, including preparing a closing checksheet. Managers completed these
checksheets in 89 (94 percent) of 95 cases we reviewed14 and indicated that examiners prepared
lead sheets and workpapers that adequately documented the scope, depth, and techniques used to
support the conclusions in the case, even though we determined that supporting documentation
was not included in many of the cases.
Unless examiners provide adequate documentation and managers provide adequate review of the
case files, subsequent analysts, researchers, and outside stakeholders may be unable to rely on
the information the study was designed to provide. In addition, if steps are not performed
consistently in all NRP Employment Tax Study examinations, the study results may be
inaccurate, which could lead to less effective allocation of future enforcement resources.

Recommendations
The Commissioner, SB/SE Division, and Commissioner, TE/GE Division, should:
Recommendation 1: Inform staff and managers of issues identified in our report and
remind them of the importance of adequately documenting case files for the remainder of the
NRP Employment Tax Study.
        Management’s Response: IRS management agreed with our recommendation.
        According to the IRS, the SB/SE and TE/GE Divisions’ Employment Tax leadership
        have already begun to communicate to staff and managers about identified issues through
        a series of virtual interactive discussions. The focus of the calls is on improving the
        quality of remaining NRP cases through better documentation. The IRS stated that the
        remaining calls have been scheduled.


14
  Based on our random sample, we are 90 percent confident that the potential range of NRP Employment Tax Study
cases for which managers completed the required checksheets is between 90 and 98 percent.
                                                                                                       Page 6
                               Improvements Are Needed in Documentation
                             and Data Accuracy for the Employment Tax Study



Recommendation 2: Assess quality review issues TIGTA identified (e.g., lack of supporting
documentation for payroll reconciliations), document any lessons learned, and use the
information to improve the overall quality of future employment tax examinations.
         Management’s Response: IRS management agreed with our recommendation.
         According to the IRS, SB/SE and TE/GE Divisions’ Employment Tax leadership will
         analyze data from quality reviews of NRP cases. Recurring issues will be identified,
         including documentation deficiencies, and all group managers will be informed of the
         deficiencies and expectations for reviewing cases involving required filing checks and
         documentation under current package audit requirements. The IRS stated that a sample
         workpaper showing how reconciliation should be documented will be created and tied to
         lead sheets for use by SB/SE and TE/GE examiners. Group Managers will use it in
         discussions they will have with all examiners to inform them about best practices and
         techniques to improve employment tax audit quality overall.

Although Valuable Employment Tax Compliance Data Are Being
Gathered, Some Data Are Not Accurate
The NRP Employment Tax Study is collecting voluminous amounts of data to assist the IRS in
updating examination selection and resource allocation systems and identifying ways to improve
voluntary compliance. These data are recorded by examiners when conducting examinations and
subsequently uploaded to the NRP databases. From our statistical sample of 95 closed cases, we
reviewed 4,748 data elements15 recorded by examiners. We determined that 1,081 of these data
elements were not accurately reflected on the NRP databases.16 The Standards for Internal
Control in the Federal Government17 state that controls should ensure that transactions are
completely and accurately recorded.
Programming and data transmission issues resulted in 1,081 inaccurate data elements within the
NRP databases. Specifically:
        922 data elements erroneously reflected zeros instead of “null” when data fields were
         intentionally left empty or when certain forms were not applicable. As a result, reviewers
         may misinterpret examination results because they believe examiners entered zeros in
         certain fields when that was not the case. IRS management agrees that, in some
         instances, the use of zero instead of null values is a material difference. However,


15
   These key elements involved payroll reconciliations, backup withholding, Form 1099 filings, fringe benefits, and
worker classification issues. We also selected elements that reflected wage adjustments as well as tax and penalty
assessments that the examiners reported at the close of the examination.
16
   See Appendix IV.
17
   Government Accountability Office (formerly known as the General Accounting Office), GAO/AIMD-00-21.3.1,
Internal Control: Standards for Internal Control in the Federal Government (Nov. 1999).
                                                                                                             Page 7
                          Improvements Are Needed in Documentation
                        and Data Accuracy for the Employment Tax Study



       IRS management also believes that, in other instances, the values of zero and null are
       truly equivalent and should not be considered a data error.
      97 data elements contained inconsistencies. For example, we found inconsistencies in
       fields related to: 1) whether both Forms W-2 and 1099 were issued to the taxpayer;
       2) how many employees should have additional Form W-2 income; 3) whether any
       additional payments should have been reported on Forms 1099; 4) number of worker
       classification issues; and 5) whether the indicator showing the payee furnished the
       Taxpayer Identification Number was provided. In addition, we found instances in which
       the examiner entered a number in a data field, but the NRP database did not include the
       number entered by the examiner.
      35 data elements contained incorrect additional tax and penalties. ********1*********
       *********************************1**************************************
       *********************************1**************************************
       *****1***. The Office of Research was unable to provide us with a definitive
       explanation for the inaccuracy.
      27 data elements contained incorrect wage adjustment amounts for fringe benefits and
       backup withholding issues. **************1***********************
       ************************************1***********************************
       ******************1**************************************** According to
       the Office of Research, these data errors were due to a computer programming issue, the
       wrong data being uploaded to the NRP database, or a subsequent transmission of data
       that overwrote the original data incorrectly.
According to the IRS, most of the errors reported were the result of programming errors or the
fact that data were not retransmitted to the NRP database after changes were made to
examination data. There were some instances in which the Office of Research could not provide
us with a definitive explanation for the discrepancies. The Office of Research stated that it was
aware of some of these issues and was reloading the NRP databases using source data. In
addition, it was in the process of improving the accuracy of the final data sets for the sampled
TY 2008 data and plans to improve data accuracy for TYs 2009 and 2010 data thereafter.
Inaccurate information on the NRP databases could lead to less effective allocation of future
enforcement resources and may not provide the correct information for improving examination
selection and taxpayer education efforts.

Recommendation
Recommendation 3: The Director, Office of Research, should improve the quality of the data
compiled for all tax years (approximately 6,800 sampled cases) to provide reasonable assurance
that the databases accurately reflect the results of examinations.

                                                                                           Page 8
                   Improvements Are Needed in Documentation
                 and Data Accuracy for the Employment Tax Study



Management’s Response: IRS management agreed with our recommendation.
According to the IRS, the NRP employs a data perfection process prior to final data
delivery to identify and correct data problems. Through this process, the IRS stated that
the NRP uncovered the same issues as we did in our audit and has already worked to
improve the data. The NRP’s perfection processes include enhanced data testing and
reloading all final DCI files with correct data. According to the IRS, the final NRP
Employment Tax data set will be a substantially accurate reflection of the examiner
findings and entries in the data capture instruments.
Office of Audit Comments: IRS management disagreed with the outcome measures
in Appendix IV related to the data elements that were not accurately reflected on the
NRP databases. The IRS believes that, because the audit occurred during the study’s
standard data perfection process, the audit was limited by the in-process nature of the
data and that the data would be accurate by the end of the study.
Our estimates are based on a review of the NRP database using a statistical sampling
methodology of closed cases at a particular point in time. Based on the data errors we
identified, we made a recommendation to improve the quality of data. We continue to
believe our outcome measures are an accurate reflection of potential data errors if the IRS
does not take adequate corrective action.




                                                                                    Page 9
                                 Improvements Are Needed in Documentation
                               and Data Accuracy for the Employment Tax Study



                                                                                       Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the examinations conducted as part of the
NRP Employment Tax Study considered mandatory, required, and worker classification
employment tax issues and whether examiners properly documented examination work and
appropriately recorded examination results. To accomplish our objective, we:
I.         Obtained background information on the NRP Employment Tax Study.
           A. Obtained and reviewed Internal Revenue Manual 4.22.1 and 4.22.10, existing desk
              procedures and guidelines, and any planned revisions related to completing the
              NRP Employment Tax Study.
           B. Obtained the universe of NRP Employment Tax Study closures and verified the data
              were complete and accurate.
               1. Requested an extract of all 3,823 closed cases (this figure included 46 cases that
                  were closed without being examined) for the NRP Employment Tax Study as of
                  September 30, 2012, from the Office of Research.
               2. Researched the Audit Information Management System1 to determine the number
                  of closed NRP Employment Tax Study cases as of September 30, 2012 (this
                  included all the NRP Employment Tax Study closures for TYs 2008, 2009, and
                  2010 for all business operating divisions).
               3. Validated that the information obtained in Step I.B.1. was the same as the
                  information obtained in Step I.B.2. and concluded that the data provided by the
                  Office of Research were sufficiently reliable for this audit.
II.        Reviewed a statistical sample of cases to determine whether examiners considered and
           documented mandatory, required, and worker classification issues and if related data
           were accurately captured on the NRP databases.
           A. Consulted with a statistician to select a statistical sample of 95 cases from the
              population of 3,777 closed NRP Employment Tax Study cases (as of
              September 30, 2012) for which an examination was conducted. We selected our
              statistical sample using the following criteria: 90 percent confidence level, 10 percent
              expected error rate, and ± 5 percent precision rate. We selected the cases randomly to


1
    See Appendix VII for a glossary of terms.
                                                                                              Page 10
                               Improvements Are Needed in Documentation
                             and Data Accuracy for the Employment Tax Study



             ensure that each of the closed cases had an equal chance of being selected, which
             enabled us to obtain sufficient evidence to support our results.
        B. Using the statistical sample from Step II.A., determined whether:
             1. Required forms were completed for mandatory, required, and worker
                classification issues, if applicable.
             2. The case file documented completion of the required testing, identification and
                examination of the issues and, if needed, resolution of the deficiencies.
             3. Determined whether case reviews included documentation to support managerial
                oversight of the examination for the 95 cases sampled.
             4. Determined whether examination results were being appropriately captured on the
                NRP databases for the 95 cases sampled.
                 a. Requested a download of the captured NRP results from the Office of
                    Research for the 95 cases sampled.
                 b. Determined if the examination results for the 95 sampled cases relating to the
                    mandatory, required, and/or worker classification issues were accurately
                    captured on the NRP databases. From our statistical sample of 95 closed
                    cases, we reviewed 3,065 data elements2 selected from the DCI-1 lead sheets
                    completed by examiners and matched the data to the NRP Employment Tax
                    databases. The key data elements were recorded by examiners on lead sheets
                    that would provide valuable employment tax compliance data for the
                    NRP Employment Tax Study. These elements involved payroll
                    reconciliations, backup withholding, Form 1099 filings, fringe benefits, and
                    worker classification issues.
                 c. Determined if the examination results for the same statistical sample of
                    95 closed cases related to the reports identifying wage adjustments and tax
                    and penalty assessments were accurately captured on the NRP databases. We
                    reviewed 1,683 data elements selected from the DCI-2 reports completed by
                    examiners at the close of an examination and matched the data to the
                    NRP Employment Tax databases. Our objective was to identify the wage
                    adjustments and the taxes and penalties assessed on these reports and match
                    these data to the data captured on the NRP Employment Tax databases.3



2
  We looked at the same 37 data elements for each of the 95 cases in our sample. In some instances, we found that
the data element was not required for the earlier years of the study. We did not consider these as errors.
3
  The number of data elements reviewed for each case was not always the same. Depending on the examination
results, examiners may have been required to complete additional data elements.
                                                                                                          Page 11
                          Improvements Are Needed in Documentation
                        and Data Accuracy for the Employment Tax Study



           5. For Step II.B.4., calculated Reliability of Information outcomes for the number of
              data elements for which examination results were not accurately captured on the
              NRP databases.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: NRP Employment Tax Study and
IRS policies as well as procedures and practices for conducting employment tax examinations.
We evaluated these controls by interviewing personnel, reviewing documentation, reviewing
statistical samples of the NRP Employment Tax Study closed cases, and reviewing the data
compiled on the NRP databases.




                                                                                         Page 12
                         Improvements Are Needed in Documentation
                       and Data Accuracy for the Employment Tax Study



                                                                            Appendix II

                Major Contributors to This Report

Gregory D. Kutz, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Troy D. Paterson, Director
Thomas F. Seidell, Audit Manager
Theresa M. Berube, Lead Auditor
Jeffrey R. Stieritz, Senior Auditor
Donald J. Martineau, Auditor




                                                                                    Page 13
                        Improvements Are Needed in Documentation
                      and Data Accuracy for the Employment Tax Study



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Office of Research RAS:R
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Acting Director, Government Entities, Tax Exempt and Government Entities Division SE:T:GE
Director, Specialty Programs, Small Business/Self-Employed Division SE:S:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office Of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Services and Enforcement SE
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Tax Exempt and Government Entities Division SE:T
       Director, Office of Research, Analysis, and Statistics RAS




                                                                                   Page 14
                               Improvements Are Needed in Documentation
                             and Data Accuracy for the Employment Tax Study



                                                                                               Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
Reliability of Information – Potential; 4,572 DCI-1 data elements that were not accurately
reflected on the NRP databases (see page 7).

Methodology Used to Measure the Reported Benefit:
From our statistical sample of 95 closed cases, we reviewed 3,065 data elements1 selected
from the DCI-1 lead sheets completed by examiners and matched the data to the
NRP Employment Tax databases. These elements involved payroll reconciliations, backup
withholding, Form 1099 (U.S. Information Return) filings, fringe benefits, and worker
classification issues.
We determined that 1,037 of the 3,065 DCI-1 data elements were not accurately reflected on the
NRP databases. This included 922 data elements that erroneously reflected zeros instead of
“null” when data fields were intentionally left empty or when certain forms were not applicable.
While we consider all of the 1,037 errors to be data errors, we agree with IRS management that,
in some instances, the use of zero instead of null values is not material. To be conservative, we
only included the remaining 115 inaccurate data elements (1,037 - 922) in our projections.2
Based on our statistical sample, we determined that 47 of the 95 cases contained errors related to
the 115 data elements that were not captured accurately on the NRP Employment Tax databases.
The average number of errors per case was 1.211. We projected the results of our sample by
multiplying the average number of errors per case in our sample by the population of closed
cases (1.210526 × 3,777) for a total of 4,572 errors. We are 90 percent confident that the number
of errors falls between 3,329 and 5,816.




1
  We looked at the same 37 data elements for each of the 95 cases in our sample. In some instances, we found that
the data element was not required for the earlier years of the study. We did not consider these as errors.
2
  This includes 97 data elements containing inconsistencies and 18 data elements containing incorrect wage
adjustment amounts for fringe benefits (page 8).
                                                                                                          Page 15
                               Improvements Are Needed in Documentation
                             and Data Accuracy for the Employment Tax Study




Type and Value of Outcome Measure:
Reliability of Information – Potential; 1,749 DCI-2 data elements that were not accurately
reflected on the NRP databases (see page 7).

Methodology Used to Measure the Reported Benefit:
From our statistical sample of 95 closed cases, we reviewed 1,683 data elements selected from
the DCI-2 reports completed by examiners and matched the data to the NRP Employment Tax
databases. Our objective was to identify the wage adjustments and the taxes and penalties
assessed on these reports and match these data to the data captured on the NRP Employment Tax
databases. Not all of the 95 cases in our sample reflected wage adjustments, taxes, or penalties.
When a case documented wage adjustments, taxes, or penalties, we reviewed data elements from
those forms that were specific to the case and matched them to the elements on the
NRP databases. These elements were not necessarily the same for each case reviewed. If a case
had no adjustments, we selected data elements from reports that showed no adjustments and
matched those same elements to the NRP databases. In these instances, we found $0 captured on
the NRP databases. We determined that 44 of the 1,683 data elements were not accurately
reflected on the NRP databases.3
Based on our statistical sample, we determined that 11 of the 95 cases reviewed contained errors
related to 44 data elements. The average number of errors per case was 0.463. We projected the
results of our sample by multiplying the average number of errors per case by the population of
closed cases (0.463 × 3,777) for a total of 1,749 errors. We are 90 percent confident that the
number of errors falls between 638 and 2,861.




3
  This includes 35 data elements containing incorrect additional tax and penalties and nine data elements containing
incorrect wage adjustment amounts for fringe benefits and backup withholding issues (page 8).
                                                                                                            Page 16
                       Improvements Are Needed in Documentation
                     and Data Accuracy for the Employment Tax Study



                                                                             Appendix V

             Tax Forms Referred to in This Report

    Tax Form                                 Form Name and Use

Form 941           Employer’s Quarterly Federal Tax Return. Employers who withhold
                   income taxes from wages, or who must pay Social Security or Medicare tax,
                   use Form 941 to report those taxes.

Form 1099 series   U.S. Information Returns. This series of forms is used to report various
                   types of taxable income other than wages, salaries, and tips. A copy of
                   these forms should be furnished to employees to assist in preparing income
                   tax returns.

Form W-2           Wage and Tax Statement. Employers file Forms W-2 to report wages, tips,
                   and other compensation paid to employees as well as Social Security and
                   Medicare taxes and withheld income taxes.

Form W-3           Transmittal of Wage and Tax Statements. Employers use Form W-3 to
                   transmit Forms W-2 to the Social Security Administration.




                                                                                      Page 17
                          Improvements Are Needed in Documentation
                        and Data Accuracy for the Employment Tax Study



                                                                                  Appendix VI

          Required Forms Referred to in This Report

  Required Form                                         Description
Multi-Year and          This required form contains examination steps the examiner should
Related Returns         consider to determine the taxpayer’s filing requirements (including both
                        employment and related income tax returns) and determine whether the
                        taxpayer under examination is compliant with those filing requirements.
                        This required form assists the examiner in concluding whether to expand
                        the examination to other tax years (employment taxes) and/or to refer the
                        case to another group of examiners if there is an indication that the entity
                        is not in compliance with income tax requirements.
Payroll                 This required form lists the required payroll examination steps that the
Reconciliation          examiner needs to complete to verify that the Forms W-2, Forms W-3,
                        Forms 941, income tax returns, and payroll summaries reconcile. The
                        Payroll Reconciliation form also includes an extensive list of the required
                        IRAS reports that the examiner needs to review and include in the case
                        file to perform required payroll tests for potential compliance issues
                        relevant to Forms 1099 and W-2 reporting.
Form 1099 Filing        This required form is designed to assist the examiner in identifying issues
Checks                  related to worker classification, including Forms 1099 issued by the
                        taxpayer or Forms 1099 that should have been issued by the taxpayer and
                        whether payments reported on the Forms 1099 should have been reported
                        as wages on a Form W-2.
Fringe Benefits for     These required forms summarize the adjustments for taxable fringe
Executives and          benefits the examiner identified during the examination and captures all
Non-Executives          the various benefits the entity could provide its employees.
Backup Withholding      This required form is designed to assist the examiner in determining if
                        there was an omission of Form 1099 income, if backup withholding
                        applies, and if the taxpayer had the employee’s Taxpayer Identification
                        Number on file at the time reportable payments were made.
Worker Classification   These forms are additional forms relating to whether workers were
                        misclassified and treated as independent contractors but should have been
                        treated as employees.

                                                                                            Page 18
                          Improvements Are Needed in Documentation
                        and Data Accuracy for the Employment Tax Study



                                                                                Appendix VII

                               Glossary of Terms

      Term                                            Definition

Audit Information    This IRS computer system tracks the location, age, and status of tax returns
Management           under examination and is used to control tax returns, input
System               assessments/adjustments, and provide management reports.

Backup               Persons (payors) making reportable payments to payees must deduct and
Withholding          withhold for the IRS a specified percentage of those payments, if a
                     condition for withholding exists.

Business             The IRS is comprised of four business operating divisions: the Wage and
Operating Division   Investment, SB/SE, LB&I, and TE/GE Divisions.

Data Capture         The DCI consists of two Microsoft Excel workbook files. DCI-1 is a
Instrument (DCI)     compilation of electronic forms used by the examiner to complete the
                     employment tax examination. DCI-1 is shared by all participating business
                     operating divisions and contains entity data, an issue summary, and the
                     required forms that should be completed during an examination. DCI-2
                     consists of the report writing package. Data are captured from these files
                     for research and analysis purposes.

Data Elements        DCIs contain multiple spreadsheets. In the context of this report, a data
                     element refers to a single entry in a cell of one of these spreadsheets.

Fiscal Year          A 12-consecutive-month period ending on the last day of any month. The
                     Federal Government’s fiscal year begins on October 1 and ends on
                     September 30.

Fringe Benefit       Any cash, property, or service that an employee receives in addition to
                     regular taxable wages.

Information Return The IRAS is a Microsoft Access program that examiners conducting
Analysis System    NRP Employment Tax Study examinations must use to perform required
                   payroll tests for potential issues relevant to Forms 1099 and W-2 reporting.


                                                                                          Page 19
                     Improvements Are Needed in Documentation
                   and Data Accuracy for the Employment Tax Study




       Term                                      Definition

Lead Sheets      Preloaded Microsoft Excel workpapers in the DCI created to assist in the
                 examination of mandatory, required, and examiner-identified issues.

Tax Gap          The gross Tax Gap is the difference between what taxpayers should pay on
                 a timely basis and what the IRS collects through voluntary compliance and
                 enforcement activities. The net Tax Gap is calculated by subtracting
                 amounts the IRS expects to recover through enforcement actions and late
                 payments.

Taxpayer         A nine-digit number assigned to taxpayers for identification purposes.
Identification   Depending upon the nature of the taxpayer, the number is an Employer
Number           Identification Number, Social Security Number, or Individual Taxpayer
                 Identification Number.

Tax Year         A 12-month accounting period for keeping records on income and expenses
                 used as a basis for calculating the annual taxes due.




                                                                                    Page 20
          Improvements Are Needed in Documentation
        and Data Accuracy for the Employment Tax Study



                                                Appendix VIII

Management’s Response to the Draft Report




                                                         Page 21
  Improvements Are Needed in Documentation
and Data Accuracy for the Employment Tax Study




                                                 Page 22
  Improvements Are Needed in Documentation
and Data Accuracy for the Employment Tax Study




                                                 Page 23
  Improvements Are Needed in Documentation
and Data Accuracy for the Employment Tax Study




                                                 Page 24
